BGJCP

BAUM GLASS JAYNE CARWILE & PETERS

Jeffrey C. Baum I Jason L. Glass I Andrew C. Jayne I John J. Carwile I Stephen Q. Peters
Tara D. Zickefoose I Emily C. Krukowski I Courtney L. Cagle I Clayton J. Chamberlain*
No. 18-5097
Michelle Dawn Murphy
Petitioner,
v.
The City of Tulsa
Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on June 3, 2020, one (1) copy of the PETITION FOR A WRIT OF
CERTIORARI in the above-captioned case was served, as required by the U.S. Supreme Court
Rule 29.3, on the following:
T. Michelle McGrew
Kristina L. Gray
One Technology Center
175 Ease Second Street, Suite 685
Tulsa, Oklahoma 74103
Telephone: 918-596-7717
Attorneysfor the Defendant-Appellee City of Tulsa
The following email addresses have also been served electronically:
tmcgrew @cityoftulsa. org
kgrav@cityoftulsa.org

John J Car 'le
GLASS A E CARWILE & PETERS
401 S. Boston Ave., Suite 2000
Tulsa, Oklahoma 74103
Telephone: 918/938.7944
Facsimile: 918/938.7966
Email: jcarwile@bgjclaw.com

Sworn to and subscribed before me this 3rd day of June, 2020.

BECKY BOONE
Notary Public, State of Oklahoma
Commission # 01019292
My Commission Expires 11-28-2021

NOTARY P BLIC
State of Oklahoma
My Commission expires

///eDe4Z ?Li

I

Mid-Continent Tower I 401 South Boston Avenue I Suite 2300 I Tulsa, Oklahoma 74103
T: 918.938.7944 I F: 918.938.7966 I bgjclaw.com

*of Counsel

